                          0
.




              FOREIGN COMPARATIVE TESTING PROGRAM



    Report No. 98-133                         May 13, 1998




                  Office of the Inspector General
                      Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Planning and Coordination
 Branch of the Analysis, Planning, and Technical Support Direotorate at (703) 604-8908
 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: APTS Audit Suggestions)
                 Inspector General, Department of Defense
                 400 Army Navy Drive (Room 801)
                 Arlington, Virginia 22202-2884


 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
 or by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronym

FCT                  Foreign Comparative   Testing
                                    INSPECTOR     GENERAL
                                   DEPARTMENT   OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                   ARLINGTON, VIRGINIA 22202




                                                                              May 13, 1998

MEMORANDUM          FOR DIRECTOR, TEST, SYSTEMS ENGINEERING                  AND
                        EVALUATION

SUBJECT:     Audit Report on Foreign Comparative    Testing Program
              (Report No. 98-133)                                  .


        We are providing this report for your information and use. Management
comments on a draft of this report were considered in preparing the final report. This
report is the fourth and last in a series of reports addressing the Foreign Comparative
Testing Program.

         Comments on the draft of this report conformed to the requirement of DOD
Directive 7650.3 and left no unresolved issues. Therefore, no additional response is
necessary.

          We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. John E. Meling at (703) 604-9091 (DSN 664-9091) or
Mr. Harold C. James at (703) 604-9093 (DSN 664-9093). See Appendix F for the report
distribution. The audit team members are listed inside the back cover.




                                          David K. Steensma
                                   Deputy Assistant Inspector General
                                              for Auditing
                               Offke of the Inspector General, DOD

Report No. 98-133                                                            May 13,1998
   (Project No. 7AE-0039.03)


                        Foreign Comparative       Testing Program


                                     Executive Summary


Introduction.     This report is the fourth and last in a series of rep’orts addressing the
Foreign Comparative Testing Program. The first report addresses the use of the Foreign
Comparative Testing Program funds for the BOL Expendable Countermeasure Dispenser.
The second report addresses the reporting of Foreign Comparative Testing Program
project costs. The third report addresses a proposal to test nickel cadmium batteries for
use on the Advanced Sea-Air-Land Delivery System vehicle. The objective of the
Foreign Comparative Testing Program is to test and evaluate foreign nondevelopmental
items to determine whether the items can be used to satisfy U.S. military requirements.
The Foreign Comparative Testing Program is intended to reduce overall DOD acquisition
costs by facilitating the procurement of successfully tested foreign nondevelopmental
items in lieu of developing comparable items domestically. In the Annual Report to
Congress for 1997, the Foreign Comparative Testing Program Manager reported that
testing through the Foreign Comparative Testing Program and predecessor foreign testing
programs had avoided nearly $3.3 billion in research, development, test, and evaluation
costs from 1980 through 1997. The Foreign Comparative Testing Program receives
about $33 million yearly to fund DOD Component project proposals.

Audit Objectives. The primary audit objective was to determine whether DOD system
acquisition managers were considering and using the Foreign Comparative Testing
Program when formulating acquisition strategies. We also followed up on a
recommendation relating to the Foreign Comparative Testing Program in a 1992
Inspector General, DOD, audit report and reviewed implementation of management
controls applicable to the audit objective.

Audit Results. Since the 1992 audit report, the Foreign Comparative Testing Program
Office (Program Offtce) has significantly improved the management of the Foreign
Comparative Testing Program and increased the likelihood that Foreign Comparative
Testing Program projects will result in procurement of foreign nondevelopmental items
that satis@ validated DOD requirements. Although the Program Office has made
progress in reducing the number of Foreign Comparative Testing Program projects
selected without fully satisfying project funding criteria, the Program Office can make
further improvements in the processes used for planning and selecting Foreign
Comparative Testing Program projects. Specifically, 28 of 79 project proposals that the
Review and Selection Committee selected for funding in FYs 1994 through 1998 did not
satisfy one or more requirements for submitting a proposal, that is, a validated
requirements document, an assessment of logistics support requirements, or an
identification of budgeted funds to procure the foreign item. In total, the Program Office
allocated $30.4 million, or 26 percent of its budget, to fund the 28 projects during FYs
1994 through 1998. As a result, the Program Manager funded testing projects that did not
or may not lead to procurement of foreign nondevelopmental items at the completion of
successful item testing. See Part I for details. Also, see Appendix A for details of the
review of the management control program.

Summary of Recommendations.       We recommend that the Foreign Comparative Testing
Program Manager revise the draft Foreign Comparative Testing Program Handbook
guidance to do the following:                                .

        o include the participation of a logistics representative on the Review and
Selection Committee;

       o include assessment of logistics support and reference to the Mission Need
Statement as documentation to support a validated requirement in the checklist that DOD
Components use in screening the completeness of project proposals; and

       o state that project proposals should meet all proposal requirements to maximize
chances for selection.

Management    Comments.    The Director, Test, Systems Engineering and Evaluation,
responding for the Foreign Comparative Testing Program Manager, concurred with and
implemented the recommendations in the draft Foreign Comparative Testing Program
Handbook. See Part I for a discussion of management comments to the recommendations
and Part III for the complete text of management comments.




                                             ii
Table of Contents

Executive Summary                                                               i

Part I - Audit Results

      Audit Background                                                          2
                                                          .
      Audit Objectives                                                          2
      Finding A. Foreign Comparative Testing Program Management Improvements    4
      Finding B. Plan&g and-selecting Foreign Comparative Testing Program
                  Projects                                                     11

Part II - Additional Information

      Appendix A. Audit Process
         Scope                                                                 20
        Methodology                                                            20
        Management Control Program Review                                      20
      Appendix B. Summary of Prior Coverage                                    22
      Appendix C. Foreign Comparative Testing Program Process                  24
      Appendix D. Foreign Nation Perspectives on the Foreign Comparative
                    Testing Program                                            28
      Appendix E. Summary of Foreign Comparative Testing Program Projects
                    Reviewed                                                   30
      Appendix F. Report Distribution                                          35



Part III - Management Comments

      Director, Test, Systems Engineering   and Evaluation, Comments           38
Part I - Audit Results
Audit Background

     This report discusses the use of the Foreign Comparative Testing (FCT) Program
     as a source of funding for the Army, the Navy, the Air Force, the Marine Corps,
     and the U.S. Special Operations Command (referred to in this report as DOD
     Components) to test foreign technologies and equipment that have the potential to
     satisfy U.S. military requirements. Section 235Oa(g) of Title 10, United States
     Code, “ Cooperative Research and Development Projects: Allied Countries,”
     authorizes the Secretary of Defense to perform side-by-side testing to determine
     whether foreign technologies and equipment can be used to satisfy U.S. military
     requirements. In 1989, to satisfy the Title 10 requirement, the DOD consolidated
     two predecessor programs, the Foreign Weapons Evaluation Program and the
     North Atlantic Treaty Organization Comparative Test Program, to form the FCT
     Program. The objective of the FCT Program is to test and evaluate foreign
     nondevelopmental items to determine whether the items satisfy U.S. military
     requirements or address mission area shortcomings. DOD guidance relevant to the
     FCT Program is provided in DOD Manual 5000.3-M-2, “Foreign Comparative
     Testing Program Procedures Manual,” January 1994. The FCT Program receives
     separate funding in a program element included in the Office of the Secretary of
     Defense, Test, Systems Engineering and Evaluation, budget. The FCT Program
     Manager (the Program Manager) functions under the Director, Test, Systems
     Engineering and Evaluation. Appendix C provides an overview of the FCT
     Program process.


Audit Objectives

     The primary audit objective was to determine whether DOD system acquisition
     managers were considering and using the FCT Program when formulating
     acquisition strategies. This report on the use of the FCT Program by the DOD
     Components to test foreign technologies and equipment is the fourth and last in a
     series of reports addressing the FCT Program. The first report addresses the use
     of FCT Program funds for the BOL Expendable Countermeasures Dispenser. The
     second report addresses the reporting of FCT Program project costs. The third
     report addresses an FCT Program proposal to test nickel cadmium batteries for
     use on the Advanced Sea-Air-Land Delivery System vehicle. We also followed
     up on a recommendation relating to the FCT Program in Inspector General, DOD,
     Report No. 92-049, “Foreign Weapons Evaluation in the Department of
     Defense,” February 19,1992, and we reviewed the implementation of



                                         2
management controls applicable to the audit objective. In Appendix A, we
discuss the scope and methodology used to accomplish the audit objective as well
as management controls. Appendix B discusses the prior audit coverage.




                                    3
           Finding A. Foreign Comparative Testing
           Program Management Improvements
           Since 1992, the FCT Program Office (the Program Office) has
           significantly improved the management of the FCT Program, including:

                  o increasing emphasis on selecting and funding testing for projects
           based on procurement potential;                 .

                   o increasing DOD acquisition community awareness and
           understanding of the FCT Program;

                   o improving FCT Program guidance; and

                   0 implementing acquisition reform initiatives.

           The improvements occurred because the Program Manager recognized the
           need to increase the effectiveness and efficiency of the FCT Program.
           Also, the Program Manager took actions to correct a deficiency identified
           in the Inspector General, DOD, Report No. 92-049, “Foreign Weapons
           Evaluation in the Department of Defense,” February 19,1992. As a
           result, projects selected for testing funding were more likely to result in
           procurement of foreign nondevelopmental items that satisfied validated
           DOD requirements. In addition, DOD was able to avoid duplicative U.S.
           research, development, test, and evaluation costs; field needed military
           equipment more rapidly; and improve cooperative support between the
           United States and allied and friendly nations.


Test Categories Within the FCT Program

    The FCT Program consists of two test categories: tests to procure items and tests
    where no procurement of an item is intended. The test-to-procure category
    supports the test and evaluation of foreign nondevelopmental items for possible
    procurement. The testing may involve either comparative testing of multiple
    items that are evaluated against each other and against a set of requirements or
    testing of a unique foreign item to determine whether the item’s capabilities meet
    the vendor’s claim. After the test-to-procure projects are completed, DOD
    Components then procure the items that successfully meet requirements and
    demonstrate best value. The no-procurement-intended category involves a




                                         4
  Finding A. Foreign Comparative          Testing Program Management              Improvements


    technical assessment of foreign technologies or manufacturing processes to
    determine whether they offer the potential for significant future cost avoidance in
    the development or production of U.S. products.


Management      Improvements              in the FCT Program

    The Program Office has significantly improved the projest selection process, DOD
    acquisition community awareness and understanding of the FCT Program, and
    guidance for the FCT Program. The Program Office has also effectively
    implemented acquisition reform initiatives.

    Selecting FCT Program Projects. DOD Manual 5000.3-M-2 states that:

               Generally, the first priority for FCT project funding shall be for T&E
               [test and evaluation] of foreign equipment in production or in the fmal
               stages of development, where favorable test results could lead to a
               subsequent acquisition of the equipment by a DOD Component. T&E
               of foreign equipment may be conducted to assess the technology used
               in the equipment and its possible applicability to U.S. development
               efforts; however, in most cases, this will be a lesser priority than ND1
               [nondevelopmental item] projects. Technical assessment projects will
               not be undertaken without the fill understanding of the foreign
               government and manufacturer that the test, regardless of its outcome,
               will not likely result in subsequent additional acquisition of the tested
               items.

    In our 1992 audit report, we reported project statistics for FYs 1987 through 1990.
    We also recommended that program managers procure existing domestic or
    foreign items that meet military requirements instead of initiating or continuing
    development. Since 1992, the Program Office increased its emphasis on selecting
    and funding testing for projects that may result in procurement. As a result, the
    percentage of projects selected in the test-to-procure category increased from
    79 percent during FYs 1987 through 1990 to 93 percent during FYs 1994 through
    1998. The following table breaks out the numbers and percentages of projects
    selected in each of the testing categories during the two time periods.




                                              5
Finding A. Foreign Comparative       Testing Program Management      Improvements


                          Significant Changes in the Percentage of
                     FCT Program Projects by Selected Testing Category

                             Test-to-       No-Procurement-
      Fiscal Years           Procure           Intended               Total

      1987-1990                  zrcent)             21                 100
                           (79                 (2 1 percent)       (100 percent)
                                                               .
      1994-1998                81                    6                  87
                           (93 percent)        (7 percent)         (100 percent)

      Accordingly, the Program Manager has placed greater emphasis on using FCT
      Program funding to test items with an intent for procurement to better meet the
      primary objective of the FCT Program.

      Increasing Awareness and Understanding         of the FCT Program.      The Program
      Office increased acquisition community awareness and understanding of the FCT
      Program through the use of briefings and annual requests to the DOD Components
      for project proposals.

              Briefmgs. Throughout the year, the Program Manager provides briefings
      to DOD Component acquisition staff, who are potential participants in the FCT
      Program. Specifically, the Program Manager provided briefings to DOD
      Component Acquisition Executives; Program Executive Offkers; acquisition
      program managers; requirements sponsors or user advocates; test planners and
      executors; resource or funding sponsors; system, subsystem, or component users;
      contracting officers; and representatives of foreign and domestic industries and
      foreign governments. The briefings covered the following areas:

                      o the purpose of the FCT Program, and how the FCT Program
      meets the intent of DOD Regulation 5000.2-R, “Mandatory Procedures for Major
      Defense Acquisition Programs (MDAPs) and Major Automated Information
      System (MAIS) Acquisition Programs,” March 15,1996, which requires program
      managers to determine the availability and suitability of existing
      nondevelopmental items before considering the development of a new item to
      satisfy stated DOD requirements;

                     0 examples of prior successful procurements of foreign
      nondevelopmental items through the FCT Program, and how successful prior
      projects supported the warfighter;




                                           6
Finding A. Foreign Comparative       Testing Program Management         Improvements


                  o the annual submission cycle, evaluation criteria, and selection
  process for the projects; and

                  o identification of points of contact for the FCT Program.

  In addition to giving briefings, the Program Manager raised the acquisition
  community’s awareness of the FCT Program through an FCT Program Internet
  Homepage <http://www.acq.osd.mil/te/programs/fct.html>.

          Annual Requests for FCT Program Project Prhposals.             Since 1995, the
  Program Manager has required the FCT Program focal points within the DOD
  Components to issue annual requests for FCT Program project proposals. The
  Program Manager and focal points within the DOD Components use the annual
  requests to increase acquisition community awareness of the FCT Program and to
  invite prospective sponsors and weapon system users to submit project proposals.
  The annual requests provide background information on the FCT Program,
  explain the criteria for selecting proposals, list the types of information required in
  the proposals, and provide points of contact for questions and assistance on the
  FCT Program.

  Improving   FCT Program Guidance.        At the time of our audit, the Program
  Manager was developing the FCT Program Handbook (the Handbook) to clarify
  the guidance provided in the DOD Manual 5000.3-M-2. Although the manual
  outlined the specific procedures for DOD Components to follow in supporting the
  FCT Program, the Program Manager was clarifying the procedures in the
  Handbook to help all organizations and individuals to more fully understand how
  the program operates. The Handbook will assist acquisition personnel to
  effectively manage FCT Program projects and help personnel in other
  organizations to successfully obtain project funding from the FCT Program. Also,
  the Handbook guidance should help alleviate problems that foreign governments
  and contractors have encountered through participating in the FCT Program (See
  Appendix D).

  Implementing    Acquisition   Reform Initiatives.   The Program Office
  successfully implemented acquisition reform initiatives, including the use of
  integrated product teams and streamlined contracting procedures.

         Integrated Product Teams. Since 1997, the Program Manager has
 required that project managers use integrated product teams to plan and manage
 FCT Program projects. The draft Handbook cites integrated product teams as a
 management tool that helps the acquisition community manage the FCT Program
 process from project inception to completion. The draft Handbook indicates that
 the composition of the integrated product teams should be fluid, with membership
 depending on the phase of the project in the testing process. In any project phase,

                                        7
Finding A. Foreign Comparative      Testing Program Management Improvements


      the draft Handbook states that integrated product teams should include
      representatives of those organizations that can plan for and decide on project cost,
      schedule, and performance. Typical team members include representatives of the
      Program Manager, the foreign vendor, the sponsoring organization, the
      requirements originator, the test organization, the resource (funding) sponsor, the
      user organization, and the contracting office. Upon identifying foreign
      nondevelopmental items as candidates for the FCT Program, the draft Handbook
      states that sponsoring organizations should assign a project manager and convene
      an integrated product team to develop a draft project proposal. In preparing the
      draft project proposal, the integrated product team is to determine whether:

                     o a valid user requirement is supported in a Mission Need
      Statement or an Operational Requirements Document,

                   o procurement funding is available for purchasing the foreign
      nondevelopmental item if it passes testing and provides the Government with the
      best value,

                      o a market investigation has been conducted, and

                     o the nondevelopmental item has been used effectively in the
      vendor’s country or in another foreign country.

              Streamlined Contracting Procedures.        The Program Manager
      implemented Office of the Secretary of Defense guidance to structure the project
      contracting strategy so that only one contract, which can be used for both testing
      and procuring a foreign item, is awarded to each competing vendor. Specifically,
      the Under Secretary of Defense for Acquisition and Technology issued guidance
      for the FCT Program that encourages procuring organizations to issue
      solicitations calling for proposals to include both the price for testing the foreign
      articles and priced options for production quantities. That type of solicitation
      allows procuring organizations, without further competition, to contract for the
      production of articles that have been successfully tested and that demonstrated
      best value. Accordingly, program offices need not go through a whole new
      contract solicitation and award process. Through use of that contracting
      approach, project managers can reduce the average time spent from project
      approval for testing to final product delivery by 2 years.
   Finding A. Foreign Comparative      Testing Program Management       Improvements




Program Manager Initiatives

     The Program Manager recognized the need to improve the effectiveness and
     efficiency of the FCT Program. To achieve that improvement, he focused on the
     following areas: procurement rather than testing as the primary objective of the
     FCT Program, implementing acquisition reform initiatives, making acquisition
     managers and foreign governments and industries more aware of the FCT
     Program, and improving guidance for the FCT Program. Also, the Program
     Manager took actions to correct a deficiency identified in the 1992 Inspector
     General, DOD, audit report. The report criticized the Military Departments for not
     taking full advantage of foreign nondevelopmental items to meet U.S. military
     needs. One reason cited in the report was that the Military Departments were not
     always nominating projects that involved viable procurement candidates. Instead,
     many of the projects nominated for testing were technical assessments (,, no-
     procurement-intended” test category). Tangible results, such as products or
     increased competition, did not result from the projects. As discussed earlier in
     this report, the Program Office has placed greater emphasis on selecting and
     funding projects based on procurement potential.


Results of Program Manager’s Initiatives

     The Program Manager’s initiatives increased the likelihood that funded testing
     projects will result in procurements of foreign nondevelopmental items that
     satisfy validated DOD requirements. As a result, DOD was able to avoid
     duplicative research, development, test, and evaluation costs; to field military
     equipment more rapidly to meet U.S. needs; and to improve U.S. relations with
     allied and friendly nations.

     Research, Development,    Test, and Evaluation   Costs. ln the Aunual Report to
     Congress for 1997, the Program Manager reported that testing and procurement
     through the FCT Program and the earlier Foreign Weapons Evaluation and North
     Atlantic Treaty Organization Comparative Test Programs had avoided nearly
     $3.3 billion in research, development, test, and evaluation costs from 1980
     through 1997. During the same period, FCT Program costs amounted to
     $620 million.

     Fielding of Needed Military Equipment      More Rapidly.    The Gulf War proved
     that DOD needs to respond quickly to warfighting requirements. The fielding time
     (project request to item in the hands of the warfighter) for a foreign


                                          9
Finding A. Foreign Comparative      Testing Program Management        Improvements


      nondevelopmental    item already in production should be faster using the new
      streamlined contracting procedures than the fielding time for developing a new
      item.

      Improving Cooperative Support. The procurement of foreign
      nondevelopmental    items improves the U.S. relationship with its allies and friends.
      It provides tangible proof that the United States is committed to buying foreign
      nondevelopmental    items from allied and friendly nations in addition to selling
      those nations our Defense products. In that regard, $4.5 billion in U.S.
      procurements of foreign nondevelopmental      items has resulted from the FCT
      Program since 1980. Also, agreements between foreign vendors and U.S.
      companies to produce foreign nondevelopmental       items in the United States create
      domestic jobs and strengthen the domestic industrial base and economy.




                                           10
            Finding B. Planning and Selecting
            Foreign Comparative Testing Program
            Projects
            Although the Program Office has made progress in reducing the number of
            FCT Program projects selected that do not fully satisfy project funding
            criteria, the Program Office can make further improvements in the
            processes used for planning and selecting FCT Program projects.
            Specifically, 28 of 79 project proposals that the Review and Selection
            Committee selected for funding in FYs 1994 through 1998 did not satisfy
            one or more of the following requirements for submitting a proposal:

                    o a validated requirements document,

                    o an assessment of logistics support requirements, and

                   o an identification of budgeted funds to procure a foreign
            nondevelopmental item if the item passed testing and demonstrated best
            value.

            In total, the Program Office allocated $30.4 million, or 26 percent of its
            budget, to fund the 28 projects during FYs 1994 through 1998. The
            projects were inappropriately selected because the guidance for the FCT
            Program did not require the DOD Components to fully coordinate user
            requirements, logistics support, and funding needs when formulating
            project proposals. In addition, the principal focal point offices within the
            DOD Components did not adequately screen project proposals for
            completeness before forwarding them to the Review and Selection
            Committee for funding consideration. Further, the Review and Selection
            Committee did not consistently require that project proposals satisfy all
            proposal submission requirements before selection and funding. As a
            result, the Program Manager funded testing of projects that did not or may
            not lead to procurement of foreign nondevelopmental items at the
            completion of successful item testing.


Project Planning and Selection Policy

     Policy. DOD Regulation 5000.2-R, Section 3.4.10, “Foreign Comparative
     Testing,” states that the FCT Program provides funding for test and evaluation of



                                         11
Finding B. Planning and Selecting Foreign Comparative        Testing Program Projects


      selected equipment items and technologies developed by allied countries when
      such items and technologies are identified as having good potential to satisfy valid
      DOD requirements.

      Requirements    for Submitting a Project Proposal. DOD Manual 5000.3-M-2
      specifies the required documentation that the DOD Components must submit to
      the Review and Selection Committee in their project proposals for FCT Program
      funding consideration. The manual states that, as a part of their project proposals,
      sponsors should provide an approved requirements document, an assessment of
      logistics support, and identification of funds that will be used for procurement of
      the foreign nondevelopmental item if it passed testing and demonstrated best
      value. The draft Handbook also includes similar requirements for submitting a
      project proposal.


Project Planning and Selection Processes

      Annually since FY 1994, the Program Offrce has made progress in reducing the
      number of selected FCT projects that did not fully satisfy proposal submission
      requirements. However, the Program Office can still further improve the
      processes used for planning and selecting projects. Specifically, 28 of the 79
      project proposals, or 35 percent, that the Review and Selection Committee
      selected for test-to-procure funding for FYs 1994 through 1998 did not satisfy one
      or more of the following proposal submission requirements:

             o a validated requirements document,

             o an assessment of logistics support requirements, and

             o an identification of funding budgeted to procure the foreign
      nondevelopmental item if the item passed testing and demonstrated best value.

      The percentage of the projects the Program Office selected missing one or more
      submission requirements declined from 18 of 47, or 38 percent, for FYs 1994
      through 1996 to 10 of 32, or 3 1 percent, for FYs 1997 through 1998. Appendix E
      summarizes specific documentation omissions identified for the 79 projects
      reviewed.

      Requirements    Documents.    The Review and Selection Committee selected
      10 projects for funding when the project proposal did not contain a valid Mission
      Need Statement or an Operational Requirements Document. Our review of the
      status of the 79 projects showed that a greater percentage of the projects having a
      Mission Need Statement or an Operational Requirements Document progressed to

                                           12
Finding B. Planning and Selecting Foreign Comparative        Testing Program Projects


     procurement of a foreign nondevelopmental item than those projects that did not
     have a validated requirements document. Specifically, all eight projects that
     successfully progressed to procurement began with a project proposal that cited a
     validated Mission Need Statement or Operational Requirements Document. Of
     the 10 proposals selected without a validated requirements document, 1 had
     successfully passed testing, but the DOD Components had not taken procurement
     actions. The other 9 projects were either still in testing or had failed testing.
     Users, having validated an operational requirement, placed increased priority on
     budgeting funds for procurement actions. The draft Handbook explains that a
     strong validation of requirements occurs when users formulate and obtain
     validation of a Mission Need Statement or Operational Requirements Document.

     Assessments    of Logistics Support. The Review and Selection Committee
     selected 18 projects for funding when the project proposal did not include an
     assessment of logistics support requirements. Of the 18 project proposals that
     were selected that did not address logistics support, one project, the Chemring
     Chaff Block, had already been adversely impacted. The Program Manager for the
     U.S. Special Operations Command delayed and eventually canceled funding for
     the project partly because the logistics support assessment that was completed
     after project selection indicated that the Chemring Chaff Block could not be cost-
     effectively supported when fielded. As a result, the project manager unnecessarily
     incurred $3 10,000 in FCT funds for testing an item that was not a viable candidate
     for U.S. procurement.

     DOD Manual 5000.3-M-2 requires that each project proposal address, as a part of
     the acquisition strategy, follow-on logistical support during the systems’ projected
     operational life. The draft Handbook also includes a logistics support assessment
     as part of the project proposal format. Although both the manual and the
     Handbook require that project proposals contain a logistics support assessment,
     the Program Manager had not in the past requested that a logistics representative
     be included on the Review and Selection Committee to ensure that
     nondevelopmental foreign items can be cost-effectively supported if acquired.
     The Review and Selection Committee should have a logistics support
     representative on the Committee to help eliminate the selection and funding of
     foreign nondevelopmental item candidates that cannot be cost-effectively
     supported in the field if procured and to enhance its integrated product team
     process.

     Identification   of Funding to Procure Foreign Nondevelopmental       Items. The
     Review and Selection Committee selected 19 projects for funding for tests when
     the project proposal did not identify funds for procuring the items if they passed
     testing and demonstrated best value. For example, the Review and Selection
     Committee selected the proposal for the F- 15 BOL Expendable Countermeasures


                                          13
Finding B. Planning and Selecting Foreign Comparative       Testing Program Projects


      Dispenser project when the proposal did not identify procurement tiding.
      During our review, we issued Inspector General, DOD, Report No. 98-047, “Use
      of Foreign Comparative Testing Program Funds for the BOL Expendable
      Countermeasures Dispenser,” January 15, 1998, documenting that the Air Force
      Air Combat Command, as the user, had not budgeted funds to buy the BOL
      Dispenser if it passed testing and demonstrated best value. In response to our
      report recommendation, the Air Combat Command provided a memorandum
      stating that it now intends to budget procurement funds in the Program Objective
      Memorandum 2002. The Air Combat Command memorandum further stated that
      pending successful testing results, the Command staff will seek to accelerate the
      procurement of the system to earlier than FY 2002.

      The DOD Manual 5000.3-M-2 and the draft Handbook both emphasize the
      identification of funds to procure nondevelopmental items as a sign of user
      commitment to a project. The draft Handbook states that future project proposals
      that do not identify procurement funding information will be considered technical
      assessments, which have the lowest priority for project tiding consideration.
      Furthermore, the draft Handbook states that the identification of funds to procure
      a foreign nondevelopmental item could help shorten the contracting lead-time by
      making it possible to award a contract that includes an option to procure the item
      after successtil testing.


Coordinating, Screening, and Selecting Project Proposals

      The Review and Selection Committee selected proposals that did not satisfy
      proposal submission requirements because:

             o DOD Manual 5000.3-M-2 did not require program managers within the
      DOD Components to fully coordinate user requirements, logistics support, and
      tiding needs before submitting project proposals;

              o focal point ofices in the DOD Components did not adequately screen
      project proposals for completeness before forwarding them to the Review and
      Selection Committee; and

              o the Review and Selection Committee did not consistently require that
      project proposals meet submission requirements before selecting projects for
      funding.

      Coordinating Project Proposals. DOD Manual 5000.3-M-2 did not require
      program managers within the DOD Components to coordinate project proposals
      before submitting them to the Review and Selection Committee. As a result,


                                           14
Finding B. Planning   and Selecting Foreign Comparative      Testing Program Projects


     program managers often prepared proposals without adequate interface within the
     various functional elements of the program office and with the user and the
     funding sponsor. The Program Manager has provided guidance in the draft
     Handbook that should greatly improve coordination of project proposals;
     therefore, this report makes no recommendation to address the issue. Most
     significantly, the draft Handbook states that the focal point offices in the DOD
     Components should ensure that proposals have been properly coordinated with
     functional area oversight ofices. To assist in the coordination effort, the draft
     Handbook also states that program mangers should use integrated product teams
     beginning with the formulation of project proposals. The integrated product
     teams are to include representatives from all organizations necessary to make
     plans and decisions related to project cost, schedule, and performance.

     Project Proposal Screening Within the DOD Components.           Focal point offices
     in the DOD Components did not adequately screen project proposals for
     submission requirements before referring the proposals to the Review and
     Selection Committee for funding consideration. Comments from the Review and
     Selection Committee on new project proposals submitted in FYs 1994 through
     1998 indicated that 94 of the 207 project proposals did not include validated
     requirements documents, address logistics support when necessary, or identify
     funding for procurement if the item passed testing and demonstrated best value.
     Of the 94 proposals, the Review and Selection Committee rejected 19 proposals
     because requirements, logistics, or funding were not addressed in the proposal
     documentation. Although DOD Manual 5000.3-M-2 required the focal point
     offices to submit project proposals in a prescribed format, the manual did not
     require the focal point offices to screen the proposals for completeness. The draft
     Handbook contains a checklist that focal point offices will be able to use for
     screening project proposals.

     Review and Selection Committee Project Selection. The Program Manager
     stated that the Review and Selection Committee frequently selected project
     proposals for funding after accepting pledges from DOD Component program
     managers and sponsors that required proposal documentation, such as approved
     requirements documents or identification of funding, was in process and would be
     later submitted to the Review and Selection Committee. However, DOD
     Component program managers were not always forthcoming with required
     proposal documentation after projects were selected for funding. Review and
     Selection Committee comments made on project proposals submitted for
     continuing projects that began from FYs 1994 through 1998 showed that the
     Committee was still waiting for required proposal documentation. As a result, the
     Committee continued to fund projects contingent on submission of the required
     proposal documentation.



                                          15
Finding B. Planning and Selecting Foreign Comparative         Testing Program Projects



Opportunities to Strengthen Draft Handbook Requirements

      In reviewing the draft Handbook, we identified two areas for which opportunities
      existed to strengthen the project proposal screening and selection processes and to
      correct conditions identified in this finding. After we briefed the Program
      Manager, he revised the draft Handbook to strengthen the processes. As the
      following subsection on screening proposals discusses, additional Handbook
      revisions were still warranted.                            .

      Definition   of a Valid Requirements Document. DOD Regulation 5000.2-R
      states that all acquisition programs are based on identified, documented, and
      validated mission needs. Before starting a new acquisition program, the
      regulation requires that a Mission Need Statement be approved. At program
      initiation, the regulation requires that the user document in an Operational
      Requirements Document performance thresholds and objectives as well as
      minimum acceptable requirements for the proposed system. The September 1997
      version of the draft Handbook referenced signed versions of the Mission Need
      Statement and Operational Requirements Document, as well as several other more
      preliminary or less specific and invalidated requirements documents, such as a
      Mission Area Plan, as being acceptable requirements documents to support a
      project proposal. After we discussed the shortfall with the Program Manager, he
      revised the December 1997 version of the draft Handbook to state that a Mission
      Need Statement or an Operational Requirements Document should support project
      proposals in documenting a validated requirement.

      Screening of Project Proposals.     In the draft Handbook, the Program Manager
      included a checklist of essential evaluation criteria as part of the project proposal
      format to help the focal point offices in the DOD Components successfully screen
      project proposals for completeness. Although use of the checklist will enhance
      the effectiveness of the screening process, the checklist provided in the December
      1997 version of the draft report did not list a logistics support assessment as an
      essential factor in determining whether a foreign nondevelopmental item can be
      cost-effectively supported in the field and did not reference the Mission Need
      Statement as an acceptable requirements document. Correction of those omissions
      will help focal point offtces ensure that project proposals are complete before
      submission to the Review and Selection Committee for funding consideration.




                                            16
Finding B. Planning and Selecting Foreign Comparative      Testing Program Projects



Recommendations         and Management             Comments

     We recommend that the Foreign Comparative Testing Program Manager
     revise the guidance in the draft Foreign Comparative Testing Program
     Handbook to:

           1. Include a logistics representative   on the Review and Selection
     Committee.                                              .

            2. Amend the essential evaluation criteria checklist that the DOD
     Components will use in screening the completeness of project proposals
     submitted by program managers to:

                   a. Include a checklist item for assessing planned logistics
     support for the foreign nondevelopmental item.

                    b. Reference the Mission Need Statement as an acceptable
     requirements   document.

            3. State that project proposals should meet all proposal submission
     requirements to increase the opportunity for proposal selection.

     Management      Comments. The Director, Test, Systems Engineering and
     Evaluation, responding for the FCT Program Manager, concurred with the
     recommendations, stating that the Program Manager revised the draft Handbook
     to include the recommended changes.




                                        17
Part II - Additional Information
                             .
Appendix A. Audit Process


Scope

        We conducted this program audit from May 1997 through February 1998 and
        reviewed data from July 1991 through January 1998. ThC FCT Program receives
        about $33 million annually to fund testing of foreign nondevelopmental    items. As
        part of our review of the FCT Program, we reviewed the DOD Component project
        proposals submitted to the Program Offtce from FYs 1994 through 1998. We also
        reviewed requirements, funding, market investigation, competition, logistics,
        production planning, estimated savings, cost reporting, and other supporting
        project data for 79 of 87 projects funded during the same time period.


Methodology

        We conducted this program audit in accordance with auditing standards issued by
        the Comptroller General of the United States, as implemented by the Inspector
        General, DOD, and accordingly included such tests of management controls as we
        deemed necessary. We did not rely on computer-processed     data to develop
        conclusions on this audit.

        Contacts During the Audit. We visited or contacted individuals and
        organizations within the DOD. Further details are available upon request.


Management          Control Program Review

        DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
        1996, requires DOD managers to implement a comprehensive system of
        management controls that provides reasonable assurance that programs are
        operating as intended and to evaluate the adequacy of those controls.




                                            20
                                                      Appendix A. Audit Process


Scope of Review of the Management Control Program. We reviewed the
adequacy of the management controls related to the process for planning,
selecting, and executing FCT Program projects. We also reviewed management’s
self evaluation of management controls.

Adequacy of Management Controls. We identified a material management
control weakness related to planning and selecting FCT Program projects as
defined by DOD Directive 5010.38. Specifically, the Review and Selection
Committee for the FCT Program selected 28 project proposals during FYs 1994
through 1998 that did not satisfy minimum proposal submission requirements.
All the recommendations     in this report, if implemented, along with the Program
Manager’s actions to strengthen the project selection process, will help ensure that
the Program Manager selects projects for funding that have greatest probability of
leading to procurement of a foreign nondevelopmental        item. We will provide a
copy of this report to the senior management official responsible for management
controls in the Office of the Director, Test, Systems Engineering and Evaluation.

Adequacy of Management’s Self Evaluation. The Program Manager identified
the FCT Program as an assessable unit and performed a self evaluation. The
Program Manager did not identify the material management control weakness that
the audit identified because his evaluation did not include a detailed review of the
procedures for planning and selecting FCT Program projects. Adequate controls
over the planning and selection of projects are necessary to ensure that FCT funds
are safeguarded against wasteful expenditures.




                                     21
Appendix B. Summary of Prior Coverage

   In 1998, the Office of the Inspector General, DOD, issued three reports in a series
   of reports on the FCT Program.

   The Office of the Inspector General, DOD, issued Report No. 98-081, “Use of the
   Foreign Comparative Testing Program for the Finnish Nickel Cadmium Battery,”
   February 23, 1998. The report states that the Navy did nUt update and resubmit
   the FCT Program project proposal for the Finnish nickel cadmium battery. If the
   Navy determines that the Finnish battery can meet portions of the Advanced Sea-
   Air-Land Delivery System vehicle power requirements, cost avoidance could total
   about $166 million over the planned life of the vehicles. Because the U.S. Special
   Operations Command is funding the development of the Advanced Sea-Air-Land
   Delivery System, the report recommended that the U.S. Special Operations
   Command update and submit the FCT Program proposal for the Finnish nickel
   cadmium battery project to the Review and Selection Committee and that the
   Command identify alternative funding sources to test the battery if FCT Program
   funding is not made available. Additionally, the report recommended that the
   Navy Deep Submergence Program consider using the Finnish nickel cadmium
   battery to meet the power requirements of the other deep submergence vehicles of
   the Navy. The report further recommended that the Program Manager consider
   the FCT Program project proposal for the Finnish battery in the out-of-cycle FCT
   Program project selection process for FY 1998 funding. The Program Manager,
   the U.S. Special Operations Command, and the Navy Deep Submergence
   Program Office concurred with the report recommendations. The U.S. Special
   Operations Command stated that it had established a separate line item in
   Program Objective Memorandum 00-05 for battery development and evaluation.
   Further, it plans to identify potential battery candidates to test in FY 2000 that
   could more economically satisfy Air-Land Delivery System vehicle power
   requirements.

   The Office of the Inspector General, DOD, issued Report No. 98-055, “Reporting
   Foreign Comparative Testing Project Costs,” January 23, 1998. The report states
   that the Program Offtce did not track and summarize the costs that the DOD
   Components incurred as part of participating in the FCT Program. As a result, the
   Program Manager could not measure the overall cost-effectiveness of the FCT
   Program. The report recommended that the Program Manager provide specific
   guidance to project managers on identifying and reporting funding contributions
   that the DOD Components make to support the FCT Program. The report also
   recommended that the Program Manager track and summarize reported project
   costs that the DOD Components incur as part of participating in the FCT Program.
   Additionally, the report recommended that the Program Manager use the reported

                                        22
                                      Appendix B. Summary of Prior Coverage


project cost information annually to help measure the continued cost-effectiveness
of the FCT Program. The Director, Test, Systems Engineering and Evaluation,
concurred with all the recommendations.

The Office of the Inspector General, DOD, issued Report No. 98-047, “Use of
Foreign Comparative Testing Program Funds for the BOL Expendable
Countermeasures Dispenser,” January 151998. The report states that the F-15
System Program Office began testing the BOL Expendable Countermeasures
Dispenser (BOL Dispenser) for the F- 15 aircraft without submitting required
documentation to the Program Manager to show that use of FCT Program funding
was warranted. As a result, the Program Manager planned to allocate $1.6 million
of limited FCT Program funds to continue the project, which did not have an
executable plan to support the Air Force decision authority in making a
procurement decision for the BOL Dispenser. The report recommended that the
F- 15 System Program Director provide the Program Manager with approved
integration and operational test plans and Air Combat Command documentation
showing its intent to budget procurement funds in the Program Objective
Memorandum 2000 for the BOL Dispenser project. The report also
recommended that the Program Manager delay allocating additional funding to
the BOL Dispenser project until the Air Force provides the required information.
The F-l 5 System Program Director concurred with the recommendation and has
begun work on test plans. He also provided a memorandum from the Air Combat
Command stating that the Command intended to budget procurement funds for
the BOL Dispenser in the Program Objective Memorandum.         As a result of the
F- 15 System Program Director’s corrective actions, the Program Manager
allocated funding to continue the BOL Dispenser project.




                                    23
Appendix C. Foreign Comparative                                Testing
Program Process

FCT Program Phases

    The FCT Program process includes the following four phases: identification of
    candidate foreign nondevelopmental items; development and selection of FCT
    Program project proposals; project management, execution, and reporting; and
    procurement.

    Identification  of Candidate Foreign Items. The FCT Program process begins
    when program management or weapon system user staff        within a DOD
    Component identify a foreign nondevelopmental item that may have potential for
    military use. DOD Component staff use a number of methods to identify foreign
    items including U.S. market investigations, foreign vendor marketing, targeted
    searches for materiel to satisfy urgent military requirements, and vendor
    demonstrations. After a foreign nondevelopmental item is identified, the
    sponsoring organization must match the item with a valid military requirement.
    Further, the sponsoring organization must determine whether the user
    organization is sufficiently interested in a foreign nondevelopmental item to
    provide funding for procurement and fielding if the item passes testing and
    demonstrates best value. If users do not have a valid requirement for an item, the
    Program Manager will not normally fund a test demonstration.

    Project Proposal Development                       Once a candidate item for the
                                          and Selection.
    FCT Program process has been identified, the project manager in the sponsoring
    organization is to establish and use an integrated product team to develop a
    proposal for a FCT Program project. The integrated product team normally
    includes representatives of all organizations and activities (including the foreign
    vendor and the Program Office) necessary to make plans and decisions related to
    project cost, schedule, and performance. The project proposals must address the
    following questions:

            0   Is the item(s) foreign?

            0   Does it have user or operator advocacy with general or flag officer
    support?

            0   Does it have a validated requirement?

            0   Has anyone done a recent market investigation on the item?

                                             24
                     Appendix C. Foreign Comparative         Testing Program Process


           o Does funding exist for procurement?

           o Does it have a reasonable opportunity for acquisition after completing
testing?

           o Is the item(s) nondevelopmental?

        o Does the sponsoring DOD Component have funding available to test and
evaluate credible U.S. domestic contender(s)?                 l




           o Is the item(s) in use or soon to be in use by the host nation?

           o Is the proposed test approach cost-effective?

           o Is foreign vendor participation apparent in the proposal development?

After a draft project proposal is completed, it is forwarded through DOD
Component channels to the Program Office. Project proposals must include the
following: an acquisition strategy, a test plan, an assessment of logistic support,
and an identification of the resources needed to complete the project.

Project Selection.        The Review and Selection Committee for the FCT Program
selects projects on an annual cycle. The Committee can also select urgent projects
on a more immediate out-of-cycle basis.

           Annual Selection Cycle. The Program Manager established deadlines of
March 15 for receiving draft project proposals and May 1 for receiving final
project proposals. In June, the Review and Selection Committee meets to initially
prioritize project proposals. At the meeting, the Review and Selection
Committee separates the proposals into the following three categories: proposals
selected for funding, proposals that may be selected and funded if the sponsoring
organizations can provide additional information to the Committee, and proposals
rejected or deferred to the next year. In July, the Review and Selection
Committee reconvenes and selects additional projects for funding. In late
summer, the Offlce of the Secretary of Defense sends notification letters to
Congress listing the individual projects to be funded. In October, if Congress has
expressed no objections, the Program Manager provides project funding to
sponsoring organizations for test and evaluation of the foreign nondevelopmental
items. The Program Manager normally funds projects for no more than 2 years,
but may consider additional funding on a case-by-case basis.

           Out-of-Cycle         In addition to the annual project selection cycle,
                           Selection.
the Program Manager can select and fund “out-of-cycle” project proposals at any
time during the year. FCT Program funding of “out-of-cycle” project proposals
is dependent on documented urgent requirements and on funding becoming

                                        25
Appendix C. Foreign Comparative     Testing Program Process


      available from slow-executing or canceled projects. The Program Office funding
      of “ out-of-cycle” project proposals makes the FCT Program more responsive in
      meeting worthy project proposals and helps minimize unobligated funding.

      Project Management,     Execution, and Reporting.      After project selection, the
      sponsoring organization’s project manager manages, executes, and reports on the
      project with the assistance of an integrated product team. The project managers
      must ensure that testing plans are promptly and accurately executed so that
      acquisition managers can make timely and informed procurement decisions.

      During project execution, project managers and staff must adhere to legal and
      policy reporting requirements and must submit periodic (usually quarterly) status
      reports to the Program Manager. The Program Manager uses the status reports to
      determine whether projects are progressing satisfactorily and to identify problems
      early, when they are easier to correct. In addition, the DOD Components provide
      the Program Manager with periodic financial reports that indicate the funding
      status of each project.

      Procurement.     Procurement is the ultimate goal of the FCT Program. If a foreign
      nondevelopmental item successfully passes testing and provides best value,
      project sponsoring organizations should be ready to buy it. Therefore, the project
      manager must have an acquisition strategy that includes the contracting method
      for acquiring the test articles and the production items in quantity, if procurement
      is intended.


FCT Program Participants

      The following organizations and groups are key participants in the FCT Program.

      Offke of the Secretary of Defense FCT Program Organization.           The Program
      Manager works under the Director, Test, Systems Engineering, and Evaluation, in
      the Office of the Under Secretary of Defense for Acquisition and Technology.
      The Program Office oversees the DOD Component’s selection, recommendation,
      and execution of projects.

      Sponsoring Organization. The DOD Components sponsor and provide funding
      for projects. Each DOD Component has an office that is responsible for the FCT
      Program at the senior staff level. Within the DOD Components, FCT Program
      points of contact located at the major commands and organizations are involved
      either in the project proposal process or in the testing and evaluation of foreign
      nondevelopmental items.



                                           26
                  Appendix C. Foreign Comparative       Testing Program Process


Users. Users are the individuals and organizations that determine whether an
item is required to meet mission requirements. Users must be involved in the
FCT Program process from the beginning and must be included on the project
manager’s integrated product team.

Foreign Vendors and U.S. Partners. Foreign vendors’ nondevelopmental
products make the FCT Program possible. Vendors with nondevelopmental items
normally become involved in the FCT Program through marketing their products
when user interest is identified or in response to a sourceg-sought announcement
(requests for information and requests for proposal) from sponsoring DOD
Components. The vendor may also suggest to the user or operator that the FCT
Program can provide the sponsoring organization with funds to test and evaluate
the foreign nondevelopmental item, if the vendor senses interest in the product.
Also, U.S. prime contractors seek teaming arrangements with foreign vendors for
nondevelopmental items having market potential in the United States. The
business arrangements include work-sharing or U.S. production of a foreign-
developed item under license. Also, the vendor should be an active participant in
the project integrated product team.

Foreign Government Organizations.         Foreign embassies and defense attaches
play an important role as liaisons for coordinating, communicating, and
exchanging information regarding the FCT Program. Once a project is selected
for funding, a representative from the defense attache offtce or a representative
from the embassy section responsible for industrial and economic issues also
monitors the progress of the projects for vendors from their nation. The earlier
the foreign government becomes involved in the FCT Program process, the better
they are equipped to overcome obstacles that may threaten the project’s success.




                                   27
Appendix D. Foreign Nation Perspectives on the
Foreign Comparative Testing Program
    We solicited input from government and contractor officials of France, Germany,
    the Netherlands, and the United Kingdom to determine how well the FCT
    Program was performing from a foreign perspective. From FYs 1980 through
     1996, the FCT Program funded 262 projects, costing $379 million, fi-om vendors
    in those four countries, or 63 percent of the total FCT furBdsduring that period.
    We interviewed foreign embassy staff from each country to obtain their opinions
    of the FCT Program and to determine their concerns with program management
    and operation. In addition, we forwarded letters soliciting input concerning the
    effectiveness and efficiency of the FCT Program to contractors in each of the four
    countries.

    Overall, the embassies and contractors were pleased with the FCT Program and
    would like the FCT Program to continue. They felt that the FCT Program
    provided their contractors a valuable avenue into the U.S. market. However, the
    foreign representatives also expressed the following concerns:

           o the lag time for making a procurement decision after the completion of
    successful item testing,

           o protection of foreign technology, and

           o availability of procurement funding to purchase items that successfully
    passed testing.

    Lag Time in Procurement.     French and German representatives felt that far too
    much lag time took place between the completion of testing for a foreign
    nondevelopmental item and a U.S. procurement decision. The delay sometimes
    allowed U.S. competitors to prepare a competitive item.

    Protection of Technology.    French and German representatives did not believe
    that their technology had always been adequately protected during their
    participation in the FCT Program. In some cases, they believed that U.S.
    contractors had adapted and used the foreign technology to develop competing
    items. The DOD then bought the U.S. item, and the foreign nation was left
    without a sale.




                                        28
Appendix D. Foreign Nation Perspectives on the Foreign Comparative         Testing
                                                                          Program


Availability of Procurement Funding. Representatives from France, Germany,
and the Netherlands stated that their contractors had experienced instances in
which foreign items had proven themselves in testing but were not bought
because the DOD Components had not budgeted procurement funds.

Other Concerns.     Other concerns that the foreign nations mentioned included the
imbalance of trade (the amount of U.S. weapon sales to each of the countries is
many times greater than the U.S. purchases of their weapons), communication
barriers, and lack of understanding of U.S. acquisition strategies.

FCT Program Initiatives. The Program Manager considered foreign concerns
when formulating the draft Handbook. The draft Handbook includes the
following clarifications to FCT Program policies and procedures that should at
least partially address concerns of the foreign representatives.

        o The draft Handbook encourages project managers to use FCT Program
contracts with options for obtaining production items to reduce the lag time for a
procurement decision.

        o The draft Handbook urges foreign vendors to obtain copies of
requirement documents or at least the title and signature page of the documents,
even if classified, to verity the interest of potential weapon system users.

        o With regard to protecting foreign technology, the draft Handbook states
that foreign vendors should be part of integrated product teams from the
development of the project proposal through project completion. Foreign vendor
participation in integrated product teams should enable foreign vendors to better
verify that their technology is being adequately protected and to document
instances in which technology is used without their authorization.

       o The draft Handbook clearly states that the absence of identified
sponsors’ procurement funding will likely result in no FCT Program funding for a
proposed project.




                                    29
Appendix E. Summary of Foreign Comparative
Testing Program Projects Reviewed
                                           Documentation Omitted From Pronosals’
                                          Validated      Procurement    Logistics
Projects                                 Requirements   Funds BudPeted Assessment

Armv
   1997-1998
   Anti-Riot Grenade                                             X
   120mm Round for MlAlIA2 Tank
   Laser/Primer Igniters
   Afocal Assembly Kit
   Scanner Assembly Kit
   Standard Advanced Dewar Assembly I
   Mobile Subscriber Equipment Radios
   Insensitive Munitions Hellfire Missile
   Advanced Tactical Parachute System                            X

   7.62mm Short Range Training Ammo                              X

   1.75 Watt Linear Drive Cooler
     Subtotal                                    0                         i


   1994-1996
   Universal/Precision Time Mortar Fuze
   Improved Ballistic Armor Grille                                         X

   Small Projected Line Charge
   Ml 27 Electronic Time Distance Fuze                                     X

   Less Than 3KW Generator Set                                             X

   Interim Vehicle-Mounted Mine Detector                                   X
   One-Watt Linear Drive Cooler
   Standard Advanced Dewar Assembly II
   Automatic Chemical Agent Detector
   Powered Multi-Fuel Burner Unit                X
   Automatic Target Tracker                      X               X         X
   Individual Personnel Parachute                X               X         X



Note: See the footnote and acronym list at the end of the appendix.




                                            30
           Appendix E. Summary of Foreign Comparative         Testing Program Projects
                                                                             Reviewed


                                           Documentation Omitted From Pronosals’
                                          Validated      Procurement    Logistics
Proiects                                 Reauirements   Funds Budgeted Assessment

Army 1994- 1996 (cont’dl
   In-Stride Land Mine Extraction Capability x                                X

   25mm Breakup Cartridge Ammunition         3                   x            z
      Subtotal                                  5               #7            8


m!Y
   1997-1998
   RDX/HMX Qualification
   Solid State DC Reference Standard
   Submarine Escape and Immersion Equip.
   Digital Voice and Data System
   NBC Analysis System
   Evacuation Hyperbaric Stretchers
   Attitude Heading Reference System
   Vehicle Hot Tap and Pump System
   Super Sonic Sea Skimming Target ER
   Titanium Nitride Coatings
      Subtotal                                  0
    1994- 1996
    Shipboard Mast Detection System
    C303S Mobile Torpedo Countermeasure
    Mine-Hunting Outboard Motor
    Aircrew Laser Eye Shield
    Communications Faired Mast
    Bearing Ambiguity Resolving Sonar
    Submarine Antenna Outfit
    Dyad Magnetic Sweep
    Modular 5-inch/54-Gun System
    Rifle Optical Sighting System
    Atmospheric Diving Suit

Note: See the footnote and acronym list at the end of the appendix.




                                           31
Appendix E. Summary of Foreign Comparative          Testing Program Projects
Reviewed


                                           Documentation Omitted From Pronosals*
                                          Validated      Procurement    Logistics
Proi ects                                Reouirements   Funds BudPeted Assessment

Navv 1994- 1996 (cont’dl
   Barracuda Target Boat System
   Lightweight Blasting Machine
   Avenger Land Navigation System
   MSG 90 Military Sniping Rifle
   Super Sonic Sea Skimming Target
   Cladding Underwater Repair System
   Minimum Operating Strip Lighting Kit
   Marine Propeller Inspection System
   Explosive Ordnance Disposal
   Electra-Optical Payload for UAVs
   84mm Insensitive Munition Heat Round
   CAS/AUR for JSOW and CALCM
     Subtotal                                  0                               0
Air Force
    1997-1998
    New Generation Heater                      X                               X
    Milstar Rubidium Standard
    Parachute Flare Pylon for F-l 6                                            X

    Night Vision Goggle Camera System                                          X
    Next Generation Small Loader
    Micro-Satellite for Space Experiments      x
    F-l 6 600-Gallon Tank                       X                              X
    F-l 5 Countermeasures Dispenser            x                 x             L!
     Subtotal                                   4                3        .5




Note: See the footnote and acronym list at the end of the appendix.




                                               32
             Appendix E. Summary of Foreign Comparative       Testing Program Projects
                                                                             Reviewed


                                           Documentation Omitted From Pronosals’
                                          Validated      Procurement    Logistics
Proiects                                 Reauirements   Funds Budgeted Assessment

   1994-1996
   Renaissance View Satellite Data                                  X

   Modular Reconnaissance Pod                                       X         X
                                                                .
   Milstar Traveling Wave Tube                                                X

   Infrared Flare for C- 17 Aircraft
   Light Defender                                                   X         X
   Electronic Warfare Management System                             x.
   84mm Carl Gustaff                            x
     Subtotal                                   1                   4         3
U. S . Snecial Onerations Command

   1997-1998
   Patrol Coastal Decoy System
   JRAAWS Phase II
   Law Insensitive Rocket Motor Propellant
     Subtotal                                   ii                  ii        0
   1994- 1996
   JRAAWS Phase I
   Maritime Craft Air Deployment System
   Chemring Chaff Block                                             x         2!
     Subtotal                                   0                   1         L

           Total                                10                  19        18




Note: See the footnote and acronym list at the end of the appendix.




                                           33
Appendix E. Summary of Foreign Comparative         Testing Program Projects
Reviewed


Acronyms:

ACADA                            Automatic Chemical Agent Detector Alarm
CALCM                            Conventionally Armed Air Launched Cruise Missile
CAS/AUR                          Close Air Support/All-Up Round
DC                               Direct Current
ER                               Extended Range
JRAAWS                           Joint Ranger Anti-Armor Weapons System
JSOW                             Joint Stand-Off Weapon
KW                               Kilowatt
LGER                             Liquid Gas Eutectic Reaction
                                 Millimeter
EG                               Marine Sniper Gun
NBC                              Nuclear Biological Chemical
RDx/HMx                          Hexagon/Octagon
UAV                              Unmanned Aerial Vehicle



l This appendix shows the documentation that the DOD Components omitted (as
indicated by an “x”) from FCT project proposals at the time the FCT Review and
Selection Committee approved funding for the projects. We defined a valid requirement
as a DOD Component approved Mission Need Statement or Operational Requirements
Document. We considered procurement funds budgeted if the DOD Components
identified a funding source and full procurement funding budgeted in a Program
Objective Memorandum.       We considered the DOD Components to have performed a
logistics assessment if the DOD Components documented a logistics support plan or
provided a logistic support analysis in the project proposal.




                                              34
Appendix F. Report Distribution


Offke of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Test, Systems Engineering and Evaluation           l


       Program Manager for the Foreign Comparative Testing Program
   Deputy Under Secretary of Defense (Logistics)
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Deputy Under Secretary of the Army, International Affairs
Director, U.S. International Cooperative Programs Activity
   Foreign Comparative Testing Program Manager
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Director, Navy International Program Office
   Foreign Comparative Testing Program Manager
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Under Secretary of the Air Force (International Affairs)
   Foreign Comparative Testing Program Manager
Auditor General, Department of the Air Force




                                           35
Appendix F. Report Distribution




Unified Command
Director, U.S. Special Operations Command Acquisition Center
   Foreign Comparative Testing Program Manager


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense        Federal Organizations              and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
   House Committee on National Security




                                                 36
Part III - Management Comments
Director, Test, Systems Engineering and
Evaluation, Comments

                   OFFICE     OF THE     UNDERSECRETARY                  OF DEFENSE
                                      3000   DEFENSE        PENTAGON
                                    WASHINGTON.        DC    203Dl-3DW
                                                                                           APR    6lQS
                                                                                       .


    MEMORANDUM FOR INSPECTOR GENERAL OF THE DEPARTMENT OF DEFENSE

    SUBIECT:      Department of Defense Inspector General Audit Report on the Foreign
                  Comparative Testing Program


           The purpose of this memo is to respond to the subject audit report in accordance with the
    requirements of Department of Defense (DoD) Directive 7650.3.

           The following lists the DOD Inspector General (IG) audit report recommendations for the
    Ofticc of the Secretary of Defense (OSD) Foreign Comparative Testing (FCT) Program along
    with the respeetivc response to the IG recommendation.

           Audit ReDort Tooic: Audit Report on Foreign Comparative Testing Program.
            (Project No. 7AE-0039.03)

           JC Summrrv of Recommendationg We recommend that the Foreign Comparative
           Testing Program Manager revise the draft Foreign Comparative Testing Program
           Handbook (the draft Handbook) guidance to do the following:

                      Include the participation of a logistics representative on the Review and
                      Selection Committee.

                      Include assessment of logistics support and reference to the Mission Needs
                      Statement as documentation to support a validated requirement in the
                      checklist that DODcomponents use in screening the completeness of project
                      proposals.

                      State that project proposals should meet all proposal requirements, or include
                      a senior officer commitment to provide any missing requirements, to
                      masimize chances for selection.

           jkmoase:
           The Offtce of the Secretary of Defense Foreign Comparative Testing Program ,Manager
           concurs with these recommendations and has included the information in the FCT
           Handbook. The FCT Handbook has been released in draft form and is available on the
           FCT Homepage at: http:Nwww.acq.osd&e/programdfcU.




                                                             38
Director, Test, Systems Engineering               and Evaluation,         Comments




      I appreciate your efforts. My POC is Major Christoff, (703) 578-6578, e-mail:
      &ristjr@acq.osd.mil.




                                                  Patricia Sanders
                                                  Director, Test, Systems
                                                  Engineering and E;aluation




                                                    2




                                                        39
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.
                                                       .
   Thomas F. Gimble
   Patricia A. Brannin
   John E. Meling
   Harold C. James
   Patrick E. McHale
   Rodney D. Britt
   Donald E. Pierro
   Renee L. Gaskin
   Addie B. Frundt
